Washington, D.C. 20530

May 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Kevin Reid v. United States of America,
S.Ct. No. 20-7497
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 11, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on May 12, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 11, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7497
REID, KEVIN
USA

ANN CATHERINE MCCLINTOCK
FEDERAL DEFENDER'S OFFICE
801 I STREET
3RD FLOOR
SACRAMENTO, CA 95814
916-498-5700

